         SENSITIVE BUT UNCLASSIFIED

        United States Department of State
      and the Broadcasting Board of Governors
                Office of Inspector General




                  Report of Inspection

The Broadcasting Board of
Governors’ Operations in
    and Broadcasting to
         Pakistan



Report Number ISP-IB-05-67, September 2005



                               IMPORTANT NOTICE
  This report is intended solely for the official use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Office of Inspector General. No secondary distribution may be
  made, in whole or in part, outside the Department of State or the Broadcasting
  Board of Governors, by them or by other agencies or organizations, without prior
  authorization by the Inspector General. Public availability of the document will
  be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
  Improper disclosure of this report may result in criminal, civil, or administrative
  penalties.



          SENSITIVE BUT UNCLASSIFIED

                    SENSITIVE BUT UNCLASSIFIED




                             TABLE OF CONTENTS

                                                                                                                     PAGE

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             1

CONTEXT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    3

     Setting and History. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             3

     Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      5

PROGRAM MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Urdu Initiative. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

     Need for Pashto Programming for Pakistanis . . . . . . . . . . . . . . . . . . . . . . . . 9

     Paving the Way for Voice of America Television . . . . . . . . . . . . . . . . . . . . 10

PROGRAM PERFORMANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        11

     Radio Aap ki Dunyaa Achieving Success . . . . . . . . . . . . . . . . . . . . . . . . . .                                 11

     Antiterrorism Broadcasting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      13

     Reaching Major Cities with a Strong FM Signal . . . . . . . . . . . . . . . . . . . . .                                   14

     Reaching Internet Users in Pakistan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           16

HUMAN RESOURCES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 17

    Review Adequacy of Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . .                                   17

    Voice of America Bureau Chief Vacancy . . . . . . . . . . . . . . . . . . . . . . . . . .                                  18

    Service Arrangements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   18

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

    Guard Services Contract . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

R ECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

PRINCIPAL OFFICERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27





                       SENSITIVE BUT UNCLASSIFIED

                    SENSITIVE BUT UNCLASSIFIED





                             KEY JUDGMENTS

    •	 In the difficult and challenging setting posed by the environment in Paki-
       stan the Broadcasting Board of Governors (BBG), through the efforts of
       the International Broadcasting Bureau (IBB) and the Voice of America
       (VOA), is making a contribution to U.S. interests in Pakistan and the region
       and, in doing so, is making a positive contribution to the global war on
       terror.

    •	 VOA's Urdu initiative was launched on May 10, 2004, with the introduc-
       tion of Radio Aap ki Dunyaa, a new brand meaning "your world" in Urdu.
       VOA has applied the objectives in the BBG strategic plan of adopting the
       principles and practices of modern radio formatics and going local in
       content and presence. This has paid off with audience growth and growing
       credibility.

    •	 Embassy Islamabad sees the tribal areas of Pakistan as a prime target
       audience. Recognizing that Pakistan is on the frontline in the global war on
       terror and that VOA broadcasts are a potentially powerful tool of public
       diplomacy, Embassy Islamabad feels strongly that VOA broadcasts to
       Pakistan also need to be in Pashto for Pashto speaking Pakistanis.

    •	 A major hurdle in Pakistan is the Pakistan Electronic Media Regulatory
       Authority (PEMRA) ordinance of 2002. In general, PEMRA has been used
       to maintain a government monopoly of broadcast news and to limit access
       by foreign broadcasters. The embassy is quietly working for liberalization
       of the media that would open the door to VOA affiliates.

    •	 Embassy Islamabad believes VOA "desperately" needs more capacity to
       reach a larger audience in Pakistan. BBG and VOA are proceeding with a
       significant technical upgrade soon to be completed and a promotional
       campaign to be launched in October 2005. In conjunction with that, IBB
       needs to establish a performance measurement objective for signal strength




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   1 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



             and audience in and around Karachi with a timetable for achieving those
             objectives. This would be the best way to determine whether additional
             enhancements to transmission capability and coverage are required and
             ensure that objectives for maximizing the audience in Pakistan are met in
             support of U.S. interests.

         •	 The management controls regime at the VOA Islamabad News Bureau is
            good. The Office of Inspector General (OIG) was satisfied with procure-
            ment, cashiering, and inventory and observed a proper separation of duties.
            However, the bureau does need to make changes in its contract for guard
            services.

          The purpose of this inspection was to assess the general operations of BBG's
      operations in and broadcasting to Pakistan, including its program management,
      program performance, human resources, and management controls. The inspection
      took place in Washington, DC, between April 5 and April 21, 2005, and in
      Islamabad, Pakistan between May 6 and May 28, 2005, concurrently with the
      inspection of Embassy Islamabad, Pakistan and its constituent posts by an inspec-
      tion team headed by Ambassador Eileen Malloy. It was conducted in accordance
      with quality standards for inspections prescribed by the President's Council on
      Integrity and Efficiency by Louis McCall, Coordinator for International Broadcast-
      ing and Public Diplomacy Evaluations, Office of Inspector General.




2 .        OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                                          CONTEXT



SETTING AND HISTORY
    The Islamic Republic of Pakistan is a country of 162 million people in South
Asia. Pakistan supported the United States in opposing the occupation by the
former Soviet Union in Afghanistan, contributing to the withdrawal of Soviet
military from that country in 1993. Today Pakistan is a partner in the global war on
terror. Since the September 11, 2001, terror attacks against the United States,
Pakistan has arrested key al-Qaida terrorists and has worked with the United States
to prevent its territory from becoming a safe haven for the defeated Afghan Taliban
regime that had provided sanctuary and common cause with Osama bin Laden and
his al-Qaida terrorist organization.

    The U.S.-Pakistan government-to-government relationship is good and is carried
on at a high level, bilateral investment and trade continues to grow, and educational
and cultural links are once again cautiously resuming growth in the aftermath of a
precipitous decline after the September 11, 2001 attacks. In spite of these positive
factors, average Pakistanis do not hold the image of the United States, its policy,
and American culture in high regard.1 Stephen P. Cohen, a senior fellow in foreign
policy studies at the Brookings Institution with expertise in Pakistan and India,
expressed the opinion in congressional testimony that "Pakistan is probably the
most anti-American country in the world...."2 Opposition parties and many clerics
in this 97 percent Muslim country readily vilify the United States and its motives.
A March 2004 poll found that 65 percent of Pakistanis held a favorable view of al-
Qaida founder Osama bin Laden.3




1
 Pew Research Center, Trends 2005, Chapter 7, "Global Opinion: The Spread of Anti-Americanism."
Also see, "Iraqi Vote Mirrors Desire for Democracy in Muslim World," The Pew Global Attitudes Project,
Feb. 3, 2005.
Statement of Stephen P. Cohen Before the Senate Foreign Relations Committee, January 28, 2004.
2

3
    Pew Research Center, A Year After Iraq War, March 16, 2004.



OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005       3 .

                       SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



          The country has a thriving, growing, relatively free media with over 40 daily
      newspapers and 22 television stations, and more than 52 AM or FM radio station
      licenses have been granted. In process are 31 applications for satellite TV licenses,
      the majority of which are from newspaper owners. However, there is an anti-U.S.
      bias in the Urdu (the national language) and English language media, and the state
      of investigative reporting is weak, permitting gratuitous and unjustified negative
      stories about the United States that more professional journalism would not have
      sanctioned. The PEMRA ordinance of 2002 gives the Pakistan Broadcasting
      Corporation, the Pakistan Television Corporation, and the Shalimar Recording and
      Broadcasting Company, all government entities, a monopoly on the broadcasting of
      news within Pakistan and limits access by foreign broadcasters.

          Pakistan is a high threat posting. Al-Qaida and Taliban terrorists and their
      sympathizers are present within the borders of Pakistan. In the tribal areas of the
      North West Frontier Province, where three million Afghan refugees lived during the
      Soviet occupation of Afghanistan and where nearly 1.9 million still remain, the
      government has waged a campaign for the loyalties of the citizenry, who have
      tribal/ethnic (Pashtun), linguistic (Pashto), and other affinities with the Taliban.
      Another 783,545 Afghan refugees are located in the province of Balochistan,
      which also borders Afghanistan. American direct-hire employees are assigned to
      the embassy for one year, unaccompanied tours. The few family members at post
      are all working for the U.S. mission as direct hires or eligible family member em-
      ployees. It is difficult, for security reasons, to conduct public diplomacy with the
      frequency, numbers of local participants, and in the locations that a more secure
      environment would permit, given the importance of the U.S.-Pakistan relationship.

           Pakistan is a country given to religious extremism and has been subject to
      periodic flare-ups of sectarian and electoral violence. In the past, there have been
      episodes in which deadly violence has been directed at American citizens and the
      U.S. mission. In 1979, a mob, acting on a false rumor of American desecration of
      Islam's holiest site in Mecca, Saudi Arabia, attacked and burned the embassy in
      Islamabad resulting in two American deaths. American employees were assassi-
      nated on their way to work in Karachi in 1995. In 2002, Consulate General
      Karachi was bombed causing loss of life, and a church frequented by Embassy
      Islamabad staff was attacked by terrorists during a service resulting in the death of
      two embassy family members. The possibility of future volatile and violent reac-
      tions to actual incidents or rumors involving events in the West Bank, Gaza,
      Mecca, Afghanistan, Iraq, or even the United States cannot be ruled out. In this
      difficult and challenging setting the BBG, through the efforts of IBB and VOA, is
      making a contribution to U.S. interests in Pakistan and the region, and in doing so,
      is also making a positive contribution to the global war on terrorism.


4 .         OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



MISSION
     The mission of the VOA in Pakistan is its traditional mission, as taken from its
charter, of serving as a consistently reliable and authoritative source of news that
is accurate, objective, and comprehensive; to represent America by presenting a
balanced and comprehensive projection of significant American thought and
institutions; and to present the policies of the United States clearly and effectively
by presenting responsible discussions and opinion of these policies.4 IBB's mission
is to deliver the VOA programming to the target audience with a strong clear signal
and at times that maximize that audience. It seeks to accomplish this through the
Office of Engineering and Technical Services and the Office of Marketing and
Program Placement.




4
    P.L. 94-350.




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   5 .

                    SENSITIVE BUT UNCLASSIFIED
           SENSITIVE BUT UNCLASSIFIED





6 .   OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


           SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                   PROGRAM MANAGEMENT

    Within Pakistan, VOA maintains a news bureau normally managed by a VOA
English correspondent in the role of bureau chief. That position was vacant at the
time of the inspection and was temporarily being filled by a contract employee
dispatched from the supervising VOA News Bureau in Hong Kong. Effectively,
part of the management was being provided by two supervisory editors in Hong
Kong. A recent OIG report reviewed the management provided by the VOA Hong
Kong News Bureau.5

    VOA's Urdu service in Pakistan, collocated in the same bureau, is managed by
a locally employed contract super stringer with the title of Coordinator for Urdu
News. Actual oversight of the Urdu operation in Pakistan is provided by VOA's
chief of the 27-person-strong Urdu service in Washington, with the assistance of
Urdu service shift editors in Washington, and all under VOA's Director of the West
and South Asia Division. In its management of Radio Aap ki Dunyaa, VOA has
been faithful to its mandates and has included U.S. government editorials, trans-
lated into Urdu.6




                      VOA Islamabad News Bureau Building


5
 Inspection of Broadcasting Board of Governors' Operations in Hong Kong, OIG Report number ISP-IB-05-64, XXX.
2005.
22 U.S.C. § 6202(b)(3).
6




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005              7 .

                     SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




      URDU INITIATIVE
           VOA has had its Urdu service on shortwave since May 13, 1951.7 VOA's
      recent Urdu initiative was launched on May 10, 2004, with the introduction of
      Radio Aap ki Dunyaa, a new brand meaning "your world" in Urdu. BBG has a
      committee for this Urdu initiative including key Washington staff and board mem-
      ber Governor Steven J. Simmons.8 As a reflection of the priority given to the Urdu
      initiative, the committee meets regularly, and a program review is held quarterly.
      Normally, a language service only has an annual program review. Changes in
      format have produced favorable results in the first half of 2005. In this, VOA has
      applied the objectives in the BBG strategic plan of adopting the principles and
      practices of modern radio formatics and going local in content and presence. This
      has paid off with audience growth, demonstrated by results from recent audience
      research, and in growing credibility. Evidence of that credibility is seen in the
      surge in attributions appearing in the Pakistan media. According to the coordinator
      for Urdu News at the Islamabad news bureau, attributions increased from one or
      two per month to an average of 15 or more and as high as 25. OIG reviewed a
      recent weekend of attributions to confirm the level indicated. Although attribu-
      tions appear in both the English and Urdu language media, the coordinator only
      reports those in the English media from four principal national dailies, so the actual
      number of attributions from all sources is much higher than is reported. The
      papers monitored for attributions are The News, Daily Dawn, The Nation, and The
      Daily Times.

          Two national Urdu language dailies, The Daily Jang (War) and Nawa-e-Waqt
      (Today's Voice), are co-owned respectively by The News and The Nation and carry a
      similar level of attributions to their English language sister papers. Attributions
      benefit from a daily Radio Monitoring Report, issued by a government entity, the
      Pakistan Broadcasting Corporation, that gives a prominent place to transcripts of
      VOA's Radio Aap ki Dunyaa news, identified as VOA Urdu. These transcripts,
      which identify reporters by name, are provided to Pakistan media outlets. This
      makes it very easy for the printed media to pick up stories and attribute them to
      VOA. Given that the Radio Monitoring Report also includes news broadcast by the
      British Broadcasting Corporation's Urdu service, the Voice of Germany's Urdu




      The VOA Urdu service was off the air from September 1953 until August 1954.
      7


      Testimony of Kenneth Y. Tomlinson, Chairman Broadcasting Board of Governors before the Subcom-
      8

      mittee on National Security, Emerging Threats, and International Relations, Committee on Government
      Reform, February 10, 2004, p. 4.


8 .         OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




service, and other broadcasters, including CNN, it speaks well of VOA that it is
getting a good number of attributions with prominent placement, including some
page one placements.



NEED FOR PASHTO PROGRAMMING FOR PAKISTANIS
    VOA has a Pashto service that includes stringers in Pakistan, all of whom are
Afghans. Their reports are primarily intended for and directed to the audience in
Afghanistan and the Afghan refugee population in Pakistan. An IBB medium wave
transmitter in Kabul broadcasting the Pashto service is clearly heard in the tribal
areas of Northern Pakistan.

    Embassy Islamabad sees the tribal areas of Pakistan as a prime target audience.
Recognizing that Pakistan is on the frontline in the global war on terrorism and that
VOA broadcasts are a potentially powerful tool of public diplomacy, Embassy
Islamabad feels strongly that VOA broadcasts to Pakistan also need to be in Pashto
with programming for Pashto speaking Pakistanis. Although Urdu is the official
language, many of the people in the tribal lands do not speak Urdu. In addition,
about 35 percent of the population of Balochistan province, mostly concentrated
in the northern areas of the province around Quetta, are Pashto speakers. Accord-
ing to Embassy Islamabad, these are the areas where extremism is prominent and,
for that reason, broadcasts in Pashto are more important than broadcasts in Urdu.


   Recommendation 1: The Broadcasting Board of Governors, in coordination
   with the Department of State, should review its broadcasts to Pakistan with
   an eye toward the possible introduction of Pashto programming directed at
   the native Pakistan Pashtun audience in Pakistan. (Action: BBG, in coordi-
   nation with Embassy Islamabad, R, S/P, and SA)


    The BBG deliberated on this recommendation and, given limited resources,
believes its Afghanistan broadcasting services provide sufficient Pashto program-
ming to the native Pakistan Pashtun audience in Pakistan.




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   9 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       PAVING THE WAY FOR VOICE OF AMERICA TELEVISION
            Under the BBG strategic plan goal of employing modern communication
       techniques and technologies is the objective of infusing more TV into the mix.9
       BBG is making headway on that objective in Pakistan where TV is rapidly becom-
       ing the medium of choice for Pakistanis. Given the limitations imposed by
       PEMRA, BBG has done a good job of getting VOA programming, including news,
       into Pakistan. During the inspection, IBB's Associate Director for Program Sup-
       port and VOA's Associate Director for Central Programming traveled to Pakistan
       where they concluded successful discussions with GEO, a privately owned Urdu
       language satellite television channel broadcast out of Dubai in the United Arab
       Emirates, to broadcast VOA TV Urdu programming to Pakistan. GEO is affiliated
       with Jang Publications, a producer of major national English and Urdu language
       daily newspapers in Pakistan, and thus has 50 years of journalistic experience to
       draw upon. Because GEO is technically off shore, it is not subject to PEMRA,
       except regarding the uplink of content from within Pakistan. However, President
       Musharraf has allowed a change in PEMRA, approved by the National Assembly
       during the inspection and awaiting approval by the upper house, that would liberal-
       ize the rules that now prohibit print media companies like the Jang Group from
       getting into the electronic media business.

           The eventual success of putting VOA Urdu programming on the GEO satellite
       channel would further raise the profile of VOA in Pakistan and increase its audi-
       ence. The format for this effort will be a half-hour TV news magazine five days a
       week to debut in October 2005, accompanied by a marketing campaign. This is a
       new step for GEO, which has not previously allowed an outside producer to
       generate news-related programming. Embassy Islamabad expressed high praise for
       this achievement by VOA. Since liberalization of the media in Pakistan is a work
       in progress, this new initiative, which is in the nature of an experiment for Paki-
       stan, will be followed with interest to see how it develops. The potential is great.
       Plans are underway to install a television studio in the VOA Islamabad News
       Bureau to facilitate video journalism contributions to this new initiative. OIG
       observed uncrated equipment for the installation being staged at the bureau.




       Marrying the Mission to the Market, p. 6.
       9




10 .          OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                 PROGRAM PERFORMANCE

     VOA's audience in Pakistan and its infrastructure have started out small but
have grown. The turning point was September 11, 2001. Prior to September 11,
2001, there were only two stringers in Pakistan for VOA's Urdu service, and the
Urdu service was broadcast for only 90 minutes in shortwave, one hour in the
evening and a 30-minute morning show. Immediately after September 11, 2001,
broadcast time was doubled, still on shortwave only, with the time allotted for the
evening and morning programs each being doubled. A few months thereafter
stringers for the Urdu service were added in the eight biggest and most important
cities of Pakistan. On May 10, 2004, the BBG's Urdu initiative made a quantum
jump with the introduction of Radio Aap ki Dunyaa, which broadcasts on a
medium wave (AM) signal for 12 hours a day between the hours of 7:00 p.m. and
7:00 a.m. local time, reaching millions of potential listeners in Pakistan and north-
east India. The station broadcasts on shortwave for three hours a day (7:00 p.m. to
8:00 p.m., 10:00 p.m. to 11:00 p.m., and 6:00 a.m. to 7:00 a.m. Pakistan time). The
station also carries 12 hours on a digital audio satellite and via the Internet. Two
more stringers were also added.



RADIO AAP KI DUNYAA ACHIEVING SUCCESS
    With the introduction of Radio Aap ki Dunyaa, the Urdu service's all news
format gave way to a mixture of music, information features, and news. However,
the 7:00 p.m. to 8:00 p.m. and 6:00 a.m. to 7:00 a.m. time slots maintained their all
news format. At other times, news leads off at the top of the hour for five min-
utes. Beginning on May 2, 2005, the format of Radio Aap ki Dunyaa was further
revamped to cover more Pakistan news with more in depth stories, featuring the
pace and style of a modern FM radio format. Individual news reports were also
compressed from a length of two to two and a half minutes down to one and a half
minutes. However, greater depth was accomplished with follow-up reports that
presented both sides of an issue despite the shorter length of reports.




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   11 .

                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           The BBG standard for a significant audience is five percent. The pre-Septem-
       ber 11, 2001, audience values for the VOA Urdu service were well below that
       standard. Even a year after September 11, 2001, audience values were only about
       one to two percent.10 A recently completed national survey of Pakistan commis-
       sioned by BBG's Office of Research, indicated VOA's Urdu programming is
       reaching three percent of adults weekly, a figure roughly twice as high as that found
       in previous surveys. Listening to VOA's Radio Aap ki Dunyaa was highest in the
       Northwest Frontier Province--a part of Pakistan that includes areas immediately
       bordering on Afghanistan. In comparison, the BBC Urdu programming, broadcast-
       ing into Pakistan with a strong signal, reaches 12.8 percent weekly.

            OIG found that the Radio Aap ki Dunyaa medium wave signal, which comes
       from an old Soviet era 500 kilowatt transmitter located in Orzu, Tajikistan leased
       by IBB, is heard well in northern areas of Pakistan, not very well and only in
       pockets in the capital area of Islamabad and Rawalpindi, and not at all in the far
       south where Karachi, the world's largest Muslim city is located. However, IBB is
       currently installing a state-of-the-art 800-kilowatt, medium-wave transmitter in
       Tajikistan, which, along with a planned antenna upgrade, should result in improved
       reliability and audibility beginning in the summer of 2005. In about October 2005,
       VOA plans to launch a promotional campaign to increase awareness of the new
       Urdu-programming format. Sometime after that, an assessment of audience values
       in Pakistan would be expected to show a marked increase.

           Embassy Islamabad expressed to OIG its opinion that VOA "desperately"
       needs more capacity to reach a larger audience in Pakistan. Because BBG and
       VOA are proceeding with a significant technical upgrade, soon to be completed,
       and a promotional campaign to be launched in about October 2005, OIG makes no
       recommendation at this time for increasing transmission capability. However, once
       the promotional campaign begins, OIG encourages BBG to permit that campaign
       to run for a number of months with periodic coverage in print media. The Radio
       Aap ki Dunyaa programs Roundtable and the call in show Your World Your Voice are
       gaining traction and popularity, would benefit from the promotional campaign and
       the transmitting upgrade, and would thus do their part in lifting the overall audi-
       ence share. In conjunction with that, IBB should monitor signal strength in
       Karachi. Currently, IBB has a remote monitoring capability in Islamabad. It should




        Marrying the Mission to the Market, Strategic Plan 2002-2007, Broadcasting Board of Governors, Chart on
       10

       Weekly Listening in Higher Priority Languages.




12 .          OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




make similar arrangements, use a contract monitor, or some other method to obtain
reliable and accurate data for the Karachi area. IBB also should establish perfor-
mance measurement objectives for signal strength and audience in and around
Karachi with a timetable for achieving those objectives. This would be the best
way to determine whether additional enhancements to transmission capability and
coverage are required and ensure that objectives for maximizing the audience in
Pakistan are met in support of U.S. interests.


   Recommendation 2: The International Broadcasting Bureau should make
   arrangements to monitor the Radio Aap ki Dunyaa signal, including signal per-
   formance in Karachi, and set performance measurement objectives for signal
   strength and audience share in and around Karachi with a timetable for
   achieving those objectives. (Action: IBB)


     Although the IBB Office of Engineering and Technical Services does not
completely concur with this recommendation, it intends to visit Karachi once the
antenna upgrade is completed. The IBB monitor in Islamabad will make further
periodic visits to the Karachi area, as warranted, to corroborate its predicted,
statistically based, signal-strength measurements using data from a network of
human and machine monitors throughout the region that it believes provides a
reliable performance metric.



ANTITERRORISM BROADCASTING
     The BBG, through the efforts of IBB and VOA, is making a contribution to
U.S. interests in Pakistan and the region, and in doing so, is also making a positive
contribution to the global war on terror. One specific way in which it has done this
is through the use of its Urdu and Pashto service broadcasts to support the Re-
wards for Justice program. Embassy Islamabad, relying on funds from the
Department's Bureau of Diplomatic Security, began an advertising campaign in
Pakistan in January 2005 to publicize the financial rewards offered for information
leading to the apprehension of terrorists believed to be in the region. VOA sup-
ported this effort in the framework of its news programming. Antiterrorism broad-
casting and countering anti-Americanism can also be achieved through VOA's
other programming such as roundtables, call-in shows, news magazines, and other




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   13 .

                    SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       features. OIG believes this is being done in Pakistan, but BBG would need to
       include appropriate questions in future audience research and conduct focus groups
       over time to evaluate the degree of impact of its broadcasting.



       REACHING MAJOR CITIES WITH A STRONG FM SIGNAL
               According to BBG's strategic plan, the long-term vision for the agency is:

           a flexible, multimedia, research-driven U.S. International Broadcasting System,
           incorporating regional network and single-country operations, that reaches mass
           audiences by programming the distinct content of the Voice of America and
           the surrogate services through state-of-the art formats and distribution channels
           - AM, FM, audio and video satellite, shortwave, and the Internet - that our
           audiences use and we control.

       BBG has attempted to implement that vision in its broadcasting to Pakistan.

            A major hurdle in Pakistan is the PEMRA ordinance of 2002. Among the
       criteria for a license, in section 5 of the legislation, is Pakistani ownership. Section
       8 makes foreign entities ineligible for licenses. Section 24 permits the PEMRA
       authority, Pakistan's counterpart to the Federal Communications Commission in the
       United States, to prohibit any broadcaster from broadcasting or rebroadcasting any
       program, and section 25 gives the authority the power to proscribe a foreign broad-
       casting service. In general, PEMRA has been used to maintain a government
       monopoly of broadcast news and limit access by foreign broadcasters. This poses a
       major obstacle to the establishment of VOA affiliates or to the prospects for the
       IBB setting up IBB-owned and-operated medium wave or FM transmitters within
       the borders of Pakistan. Although the embassy is quietly working for liberalization
       of the media, it does not see the utility of pressing the government of Pakistan to
       permit independent in-country facilities for the broadcasting of news by foreign
       entities. Such broadcasts would, in the opinion of the embassy, become lightening
       rods for those members of the Pakistani political scene who believe that the
       government of Pakistan is too acquiescent to U.S. government demands. In the
       case of VOA, to do so would be to give an issue to anti-American Islamic extrem-
       ists. However, the embassy does support PEMRA liberalization that would permit
       private Pakistani broadcasters to carry the news and to rebroadcast news from
       foreign sources--in effect, to open the door to VOA affiliates.




14 .         OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



     During congressional testimony on February 10, 2004, that included plans for
the introduction of Radio Aap ki Dunyaa via AM broadcasts, BBG Chairman
Kenneth Tomlinson announced that the Board believed it would soon add FM
affiliates in Pakistan.11 On May 10, 2004, Radio Aap ki Dunyaa began its program-
ming on 972 AM from Tajikistan. In July 2004, Radio Aap ki Dunyaa programming
began to be carried on a network of eight FM stations on FM 101 in Karachi,
Islamabad, Lahore, Faisalabad, Quetta, Sialkot, Peshawar, and Hyderabad. This
was made possible by a contract between the BBG and Clarity Communications, a
private sector group based in Karachi, that leased large blocks of time on the FM
101 network from the government-owned Pakistan Broadcasting Corporation, and
was a coup for BBG. However, according to BBG Executive Director and Acting
Director for IBB, as an experiment to gain audience and establish an FM presence,
the news was edited out of Radio Aap ki Dunyaa program rebroadcasts by VOA in
order to comply with PEMRA. After a few months, BBG decided that the program
was not worth the cost without the news included. The AM signal transmitted
from Tajikistan includes the news. Funds saved from cancellation of the FM
contract were reprogrammed to develop a half-hour weekday TV news magazine
pilot to be broadcast on GEO TV.

     In an approach that differed from that used by BBG and that tested the limits
of PEMRA, the BBC's Urdu service began rebroadcasts of its programs, including
news, on FM 103, a private network, in April 2004 from stations in Karachi,
Lahore, Faisalabad, and Multan. However, the PEMRA authority notified the FM
103 licensee in June 2004 that rebroadcasting of foreign channels by FM radio
stations was prohibited. Then again, in September 2004, the PEMRA authority
served a notice on FM 103 directing it to stop airing BBC Urdu news. The lic-
ensee, Mast FM 103, argued that a precedent had been set by the state-owned FM
101 having signed a deal with VOA.12 In the end, the BBC Urdu news broadcasts
on Mast FM 103 were halted.




 Testimony of Kenneth Y. Tomlinson, Chairman Broadcasting Board of Governors before the Subcom-
11

mittee on National Security, Emerging Threats, and International Relations, Committee on Government
Reform, February 10, 2004, p. 4.
12
  "Legal Battle Over Rebroadcast News Hots Up," Media Law Bulletin, Issue 1, Vol. 2, Feb.-April 2005, pp.
2 and 3.



OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005          15 .

                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       REACHING INTERNET USERS IN PAKISTAN
           Pakistan has only a fledgling, but rapidly growing pool of Internet users with 11
       percent of Pakistanis saying they use the Internet at least once a month, including
       seven percent who access it weekly. Research indicates that these users tend to be
       predominantly well educated, male, and between 18 and 24 years of age.13 That
       same research indicated that for some urban Pakistanis the Internet is serving as a
       major source of information about the United States. The VOA Urdu service is
       well placed to take advantage of the interest of this group with its web site. Of
       course, that web site also cross-promotes Radio Aap ki Dunyaa and streams or web
       casts programs, a valuable feature for those unable to tune in to the on air broad-
       casts. Once on the air, Urdu TV programming by VOA could also be archived or
       streamed on the VOA Urdu web site.




        Internet Use in Pakistan Highest Among Young, Well-Educated Males, Department of State, Office of Research,
       13

       South Asia Opinion Alert, June 28, 2004, p. 1.




16 .          OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                    SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                         HUMAN RESOURCES

    VOA's stable of stringers in Pakistan to support VOA English and the Urdu
service has grown appropriately since September 11, 2001. Two changes may
require a further review of staffing. The first is the possible decision to provide
programming directed at Pakistan's Pashto speakers. The second is the introduc-
tion of a TV studio in the bureau and the still developing and expanded role the
bureau will have in video journalism, including news, features, and possible pro-
grams.



REVIEW ADEQUACY OF HUMAN RESOURCES
     The coordinator for Urdu News in the Islamabad bureau has had video journal-
ism training and has submitted features in the past. However, video journalism is
resource intensive, with time being one of those resources. In order not to diminish
his work in coordinating the Urdu news for Radio Aap ki Dunyaa, VOA may need
to add an employee in the bureau who has the credentials of an international
broadcaster capable of carrying part of the video journalism load. The coordinator
for Urdu News is also a native Pashto speaker who did some coverage for VOA in
Afghanistan prior to the U.S. invasion post September 11, 2001, and could also play
a role in helping the Pashto service coordinate any new Pakistani Pashto speaking
stringers for programming targeted at Pakistan's Pashtun areas (see Recommenda-
tion 1). When necessary, he also assists VOA English if no correspondent is
available. VOA is fortunate to have such a valuable employee. Notwithstanding
his linguistic, journalistic (radio and video), managerial skills, and ability to
multitask, he will probably require help, depending on how BBG and VOA intend
to proceed with Pashto programming for Pakistanis and expanded video journalism.


   Recommendation 3: The Voice of America should review the human re-
   source requirements necessary to carry out its expanding program in Pakistan
   and then hire or contract persons with the appropriate skills and in the appro-
   priate numbers to meet the need. (Action: VOA)




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   17 .

                    SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



           VOA concurred with this recommendation and sent a delegation to Islamabad
       July 8, 2005, to review the Islamabad News Bureau staffing pattern in light of the
       expansion into television. It is expected that at least one new full-time video
       journalist will be hired to assist the Urdu coordinator, as required, with additional
       journalists to be hired on a per-piece basis, to assist either in writing or taping radio
       and television broadcast segments.



       VOICE OF AMERICA BUREAU CHIEF VACANCY
           The bureau chief position was vacant at the time of the inspection. The
       departing correspondent for VOA English had spent two years of a three-year tour
       before resigning for personal reasons and departing on March 31, 2005. To its
       credit, VOA has not left the position vacant, using a contract employee from the
       supervising VOA Hong Kong News Bureau as an interim measure. Although the
       contract employee performed admirably the importance of the issues and work
       require a permanent bureau chief.


          Recommendation 4: The Voice of America should recruit and assign a bu-
          reau chief to its Islamabad News Bureau as soon as practicable. (Action:
          VOA)


           VOA concurred with this recommendation and moved expeditiously to recruit
       and assign an Islamabad correspondent. VOA hopes to have the correspondent in
       place by the end of August 2005.



       SERVICE ARRANGEMENTS
           VOA has not reviewed its employment arrangement with two individuals
       performing menial labor services at the news bureau and contract for their services
       with a personal services agreement or other suitable arrangement. Both the cleaner
       and the gardener have been working at the bureau since 1990. Both receive cash
       for their services from petty cash and neither has a contract, but actions the bureau
       has taken may give the appearance of an employer-employee relationship. For
       example, in very similar October 17, 2003, letters from the bureau chief to the




18 .         OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




Foreign Service national administrative assistant, each of these individuals had a
"pay raise" approved to reflect "satisfactory service to the bureau and the fact that
his compensation has remained unchanged for more than [two or three] years...."
However, these individuals currently have no benefits and would be due no com-
pensation in the event of an on-the-job injury. When the gardener did injure
himself on the job, a previous bureau chief paid for his medical expenses from his
own personal funds.


   Recommendation 5: The Voice of America, in coordination with Embassy
   Islamabad, should formalize the service arrangements between the Islamabad
   News Bureau and the gardener and cleaner to clarify their status. (Action:
   VOA, in coordination with Embassy Islamabad)


    VOA concurred with this recommendation. Subsequently, the Hong Kong
senior editor established contracts for the gardener and the cleaner. VOA under-
takes to monitor both contracts to ensure there is no appearance of an employer-
employee relationship. The new VOA Islamabad correspondent will also take the
simplified acquisition course before taking up his new assignment so that he can
ensure proper regulations are followed in the future.

    OIG found reason to review the adequacy of compensation for locally em-
ployed staff, but referred that issue to OIG during the inspection of the U.S. mis-
sion. Any recommendation would appear in Inspection of Embassy Islamabad,
Consulate General Karachi, and Consulates Lahore and Peshawar, Pakistan, OIG
Report number ISP-I-05-35A, 2005.




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   19 .

                    SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





20 .   OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


            SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                 MANAGEMENT CONTROLS

   The management controls regime at the VOA Islamabad News Bureau is good.
OIG was satisfied with procurement, cashiering, inventory, and observed a proper
separation of duties. However, the bureau does need to make changes in its
contract for guard services.

     In the absence of a direct-hire, American citizen bureau chief with a contract-
ing warrant, the bureau works with the supervising bureau chief at VOA's Hong
Kong News Bureau, VOA's Financial Liaison Office in Bangkok, the budget and
fiscal office in Embassy Bangkok, VOA Administration in Washington, and IBB's
Office of Administration in Washington to ensure that procurements and disposals
of excess property are done properly and with adequate separation of duties. The
interim bureau chief serves as receiving officer. The bureau received a message of
commendation from the U.S. disbursing officer in Bangkok for 100 percent compli-
ance with required cashier reconciliations. Although the administrative assistant is
listed as an information assistant and contributes to research, she runs the office
alone when both the bureau chief and the coordinator for Urdu News are traveling
and gives priority to her administrative responsibilities. She is meticulous and
conscientious.




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   21 .

                    SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



       GUARD SERVICES CONTRACT
            Although the Islamabad news bureau uses the same guard service with which
       Embassy Islamabad contracts, it does not include guard services in its menu of
       services under the International Cooperative Administrative Support Services
       (ICASS) system. It is VOA policy to operate, to the maximum extent possible,
       administratively separate from U.S. embassies, so VOA negotiated a separate
       contract with the guard company in 1997. The agreement contained a clause
       stating that the agreement "shall continue to remain in force unless and until it is
       terminated by a written notice of termination...."14 The Federal Acquisition Regula-
       tion in subpart 17.204(e) states that, "Unless otherwise approved in accordance
       with agency procedures, the total of the basic and option periods shall not exceed
       five years in the cases of services...." Given that the guard company is seeking an
       increase, it would be contrary to the Federal Acquisition Regulation to negotiate
       such a change at this point without recompeting the contract.


            Recommendation 6: The Voice of America should instruct its Islamabad
            News Bureau to terminate its guard contract, Agreement No: ISB/VOA/
            SMS-364/97-98, and to retain guard services in the most cost-effective man-
            ner, that complies with the Federal Acquisition Regulation and International
            Broadcasting Bureau policies. (Action: VOA, in coordination with the
            Islamabad News Bureau and Embassy Islamabad)


          VOA concurred with this recommendation and plans to implement it in such a
       way that the bureau will not be without security while all options are being
       explored.




        Agreement No: ISB/VOA/SMS-364/97-98, Security Services Agreement, May 15, 1997.
       14




22 .          OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


                   SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                         RECOMMENDATIONS

Recommendation 1: The Broadcasting Board of Governors, in coordination with
  the Department of State, should review its broadcasts to Pakistan with an eye
  toward the possible introduction of Pashto programming directed at the native
  Pakistan Pashtun audience in Pakistan. (Action: BBG, in coordination with
  Embassy Islamabad, R, S/P, and SA)

Recommendation 2: The International Broadcasting Bureau should make ar-
  rangements to monitor the Radio Aap ki Dunyaa signal, including signal perfor-
  mance in Karachi, and set performance measurement objectives for signal
  strength and audience share in and around Karachi with a timetable for achiev-
  ing those objectives. (Action: IBB)

Recommendation 3: The Voice of America should review the human resource
  requirements necessary to carry out its expanding program in Pakistan and then
  hire or contract persons with the appropriate skills and in the appropriate num-
  bers to meet the need. (Action: VOA)

Recommendation 4: The Voice of America should recruit and assign a bureau
  chief to its Islamabad News Bureau as soon as practicable. (Action: VOA)

Recommendation 5: The Voice of America, in coordination with Embassy
  Islamabad, should formalize the service arrangements between the Islamabad
  News Bureau and the gardener and cleaner to clarify their status. (Action:
  VOA, in coordination with Embassy Islamabad)

Recommendation 6: The Voice of America should instruct its Islamabad News
  Bureau to terminate its guard contract, Agreement No: ISB/VOA/SMS-364/
  97-98, and to retain guard services in the most cost-effective manner, that com-
  plies with the Federal Acquisition Regulation and International Broadcasting
  Bureau policies. (Action: VOA, in coordination with the Islamabad News Bu-
  reau and Embassy Islamabad)




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   23 .

                    SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





24 .   OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


            SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                        PRINCIPAL OFFICERS

                                                       Name                            Arrival Date


Islamabad Bureau Chief                                 Vacant


Coordinator for Urdu News                              Ayaz Gul                               01/0515




15
  Ayaz Gul has been with VOA since August 17, 1996, and was elevated to the senior position for the
Urdu service in Pakistan on January 1, 2005.



OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005      25 .

                    SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





26 .   OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005


            SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                              ABBREVIATIONS

BBG                           Broadcasting Board of Governors
IBB                           International Broadcasting Bureau
ICASS                         International Cooperative Administrative Support
                              Services
OIG                           Office of Inspector General
OMB                           Office of Management and Budget
PEMRA                         Pakistan Electronic Media Regulatory Authority
                              Ordinance
VOA                           Voice of America




OIG Report No. ISP-IB-05-67, The BBG’s Operations in and Broadcasting to Pakistan - September 2005   27 .

                    SENSITIVE BUT UNCLASSIFIED
